Department of Homeland Security
   Ofﬁce of Inspector General
 Information Technology Management Letter 

   for the Federal Emergency Management 

   Agency Component of the FY 2008 DHS 

           Financial Statement Audit 


                                           (Redacted)





 Notice: The Department of Homeland Security, Office of Inspector General has redacted the report for public
 release. A review under the Freedom of Information Act will be conducted upon request.




OIG-09-48                                                                                      March 2009
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 25028




                                           March 27, 2009


                                               Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report presents the information technology (IT) management letter for the Federal Emergency
Management Agency component of the FY 2008 DHS financial statement audit as of September 30,
2008. It contains observations and recommendations related to information technology internal
control that were not required to be reported in the financial statement audit report (OIG-09-09,
November 2008) and represents the separate restricted distribution report mentioned in that report.
The independent accounting firm KPMG LLP (KPMG) performed the audit of DHS’ FY 2008
financial statements and prepared this IT management letter. KPMG is responsible for the attached
IT management letter dated December 5, 2008, and the conclusions expressed in it. We do not
express opinions on DHS’ financial statements or internal control or make conclusion on compliance with
laws and regulations.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. We trust this report will
result in more effective, efficient, and economical operations. We express our appreciation to all of
those who contributed to the preparation of this report.




                                      Richard L. Skinner 

                                      Inspector General 

                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036



December 5, 2008

Inspector General
U.S. Department of Homeland Security

Chief Information Officer
Federal Emergency Management Agency

Chief Financial Officer
Federal Emergency Management Agency

Ladies and Gentlemen:

We were engaged to audit the consolidated balance sheet of the U.S. Department of Homeland Security
(DHS) as of September 30, 2008, and the related statement of custodial activity for the year then ended
(referred to herein as “financial statements”). We were not engaged to audit the statements of net cost,
changes in net position, and budgetary resources for the year ended September 30, 2008 (referred to
herein as “other financial statements”). Due to matters discussed in our Independent Auditors’ Report,
dated November 14, 2008, the scope of our work was not sufficient to enable us to express, and we did
not express, an opinion on the financial statements.
In connection with our fiscal year (FY) 2008 engagement, we considered the Federal Emergency
Management Agency’s (FEMA) internal control over financial reporting by obtaining an understanding
of FEMA’s internal control, determining whether internal controls had been placed in operation,
assessing control risk, and performing tests of controls in order to determine our procedures. We limited
our internal control testing to those controls necessary to achieve the objectives described in
Government Auditing Standards and Office of Management and Budget (OMB) Bulletin No. 07-04,
Audit Requirements for Federal Financial Statements. We did not test all internal controls relevant to
operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982
(FMFIA). The objective of our engagement was not to provide an opinion on the effectiveness of DHS’
internal control over financial reporting. Accordingly, we do not express an opinion on the effectiveness
of DHS’ internal control over financial reporting. Further, other matters involving internal control over
financial reporting may have been identified and reported had we been able to perform all procedures
necessary to express an opinion on the DHS balance sheet as of September 30, 2008, and the related
statement of custodial activity for the year then ended, and had we been engaged to audit the other FY
2008 financial statements.
A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect
misstatements on a timely basis. A significant deficiency is a control deficiency, or combination of
control deficiencies, that adversely affects DHS’ ability to initiate, authorize, record, process, or report
financial data reliably in accordance with U.S. generally accepted accounting principles such that there is
more than a remote likelihood that a misstatement of DHS’ financial statements that is more than
inconsequential will not be prevented or detected by DHS’ internal control over financial reporting. A
material weakness is a significant deficiency, or combination of significant deficiencies, that results in
more than a remote likelihood that a material misstatement of the financial statements will not be
prevented or detected by the entity’s internal control.




                                    KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                    member firm of KPMG International, a Swiss cooperative.
During our audit engagement, we noted certain matters with respect to FEMA’s financial systems’
information technology (IT) general controls which we believe contribute to a DHS-level significant
deficiency that is considered a material weakness in IT general and application controls. These matters
are described in the IT General Control Findings by Audit Area section of this letter.
The material weakness described above is presented in our Independent Auditors’ Report, dated
November 14, 2008. This letter represents the separate restricted distribution report mentioned in that
report.

Although not considered to be material weaknesses, we also noted certain other matters during our audit
engagement which we would like to bring to your attention. These matters are also described in the IT
General Control Findings by Audit Area section of this letter.
The material weakness and other comments described herein have been discussed with the appropriate
members of management, or communicated through a Notice of Finding and Recommendation (NFR),
and are intended For Official Use Only. We aim to use our knowledge of DHS’ organization gained
during our audit engagement to make comments and suggestions that we hope will be useful to you. We
have not considered internal control since the date of our Independent Auditors’ Report.
The Table of Contents on the next page identifies each section of the letter. In addition, we have
provided: a description of key FEMA financial systems and IT infrastructure within the scope of the FY
2008 DHS financial statement audit engagement in Appendix A; a description of each internal control
finding in Appendix B; and the current status of the prior year NFRs in Appendix C. Our comments
related to financial management and reporting internal controls have been presented in a separate letter to
the Office of Inspector General and the DHS Chief Financial Officer dated December 5, 2008.

This report is intended solely for the information and use of DHS management, DHS Office of Inspector
General, OMB, U.S. Government Accountability Office, and the U.S. Congress, and is not intended to be
and should not be used by anyone other than these specified parties.


Very truly yours,
                             Department of Homeland Security

                         Federal Emergency Management Agency 

                         Information Technology Management Letter
                                    September 30, 2008

               INFORMATION TECHNOLOGY MANAGEMENT LETTER 


                                    TABLE OF CONTENTS

                                                                                               Page

Objective, Scope and Approach                                                                   1


Summary of Findings and Recommendations                                                         3


IT General Control Findings by Audit Area                                                       4


 Findings Contributing to a Material Weakness in IT                                             4


   Access Controls                                                                              4


   Application Software Development and Change Controls                                         4


   System Software                                                                              4


   Service Continuity                                                                           4


   Entity-wide Security Program Planning and Management                                         4


 Other Findings in IT General Controls                                                          6


   Access Controls                                                                              6


   Service Continuity                                                                           6


   System Software                                                                              6


   Entity-wide Security Program Planning and Management                                         6


   Segregation of Duties                                                                        6


Application Control Findings                                                                    9


Management Comments and OIG Response                                                            9


                                          APPENDICES


    Appendix                                        Subject                                    Page

                     Description of Key Federal Emergency Management Agency Financial 

                     Systems and Information Technology Infrastructure within the Scope of 

        A                                                                                       10
                     the FY 2008 Department of Homeland Security Financial Statement
                     Audit Engagement

                     FY 2008 Notices of Information Technology Findings and 

        B                                                                                       12
                     Recommendations at the Federal Emergency Management Agency
           Department of Homeland Security
       Federal Emergency Management Agency
       Information Technology Management Letter
                  September 30, 2008


    Status of Prior Year Notices of Findings and Recommendations and
C   Comparison to Current Year Notices of Findings and Recommendations   26
    at the Federal Emergency Management Agency

D   Management Comments                                                  34
                                 Department of Homeland Security

                             Federal Emergency Management Agency 

                             Information Technology Management Letter
                                        September 30, 2008

                               OBJECTIVE, SCOPE AND APPROACH

We were engaged to perform audit procedures over Department of Homeland Security (DHS) information
technology (IT) general controls in support of the fiscal year (FY) 2008 DHS balance sheet and statement
of custodial activity audit engagement. The overall objective of our engagement was to evaluate the
effectiveness of IT general controls of DHS’ financial processing environment and related IT
infrastructure as necessary to support the engagement. The Federal Information System Controls Audit
Manual (FISCAM), issued by the Government Accountability Office (GAO), formed the basis of our
audit procedures. The scope of the IT general controls assessment performed at the Federal Emergency
Management Agency (FEMA) is described in Appendix A.

FISCAM was designed to inform financial auditors about IT controls and related audit concerns to assist
them in planning their audit work and to integrate the work of auditors with other aspects of the financial
audit. FISCAM also provides guidance to IT auditors when considering the scope and extent of review
that generally should be performed when evaluating general controls and the IT environment of a federal
agency. FISCAM defines the following six control functions to be essential to the effective operation of
the IT general controls environment.

�	 Entity-wide security program planning and management (EWS) – Controls that provide a framework
   and continuing cycle of activity for managing risk, developing security policies, assigning
   responsibilities, and monitoring the adequacy of computer-related security controls.
�	 Access control (AC) – Controls that limit and/or monitor access to computer resources (data,
   programs, equipment, and facilities) to protect against unauthorized modification, loss, and disclosure.
�	 Application software development and change control (ASDCC) – Controls that help to prevent the
   implementation of unauthorized programs or modifications to existing programs.
�	 System software controls (SS) – Controls that limit and monitor access to powerful programs that
   operate computer hardware and secure applications supported by the system.
�	 Segregation of duties (SD) – Controls that constitute policies, procedures, and an organizational
   structure to prevent one individual from controlling key aspects of computer-related operations, thus
   deterring unauthorized actions or access to assets or records.
�	 Service continuity (SC) – Controls that involve procedures for continuing critical operations without
   interruption, or with prompt resumption, when unexpected events occur.

To complement our IT general controls audit procedures, we also performed technical security testing for
key network and system devices, as well as testing over key financial application controls. The technical
security testing was performed both over the Internet and from within select FEMA facilities, and focused
on test, development, and production devices that directly support FEMA’s financial processing and key
general support systems.

In addition to testing FEMA’s IT general control environment, we performed testing of automated
application controls on a limited number of FEMA’s financial systems and applications. The application
control testing was performed to assess the controls that support the financial systems’ internal controls
over the input, processing, and output of financial data and transactions.




                                                     1
   Information Technology Management Letter for the FEMA Component of the FY 2008 DHS 

                                Financial Statement Audit 

                                 Department of Homeland Security

                             Federal Emergency Management Agency 

                             Information Technology Management Letter
                                        September 30, 2008

�	 Application controls (APC) - Application controls are the structure, policies, and procedures that
   apply to separate, individual application systems, such as accounts payable, inventory, payroll, grants,
   or loans.




                                                    2
   Information Technology Management Letter for the FEMA Component of the FY 2008 DHS 

                                Financial Statement Audit 

                                 Department of Homeland Security

                             Federal Emergency Management Agency 

                             Information Technology Management Letter
                                        September 30, 2008

                     SUMMARY OF FINDINGS AND RECOMMENDATIONS

During FY 2008, FEMA took corrective action to address prior year IT control weaknesses. For example,
FEMA made improvements by restricting access to offline account tables, implementing an alternate
processing site for one of its financial applications, and improving the process for retaining National
Flood Insurance Program (NFIP) change control documentation. However, during FY 2008, we
continued to identify IT general control weaknesses at FEMA. The most significant weaknesses from a
financial statement audit perspective related to controls over access to programs and data and controls
over program changes. Collectively, the identified IT control weaknesses limited FEMA’s ability to
ensure that critical financial and operational data were maintained in such a manner to ensure
confidentiality, integrity, and availability. In addition, these weaknesses negatively impacted the internal
controls over FEMA financial reporting and its operation, and we consider them to collectively represent
a material weakness for FEMA under standards established by the American Institute of Certified Public
Accountants (AICPA). The applicable IT findings were combined into one material weakness regarding
IT in our Independent Auditors’ Report, dated November 14, 2008, on the DHS consolidated financial
statements.

Of the 26 findings identified during our FY 2008 testing, 15 were repeat findings, either partially or in
whole from the prior year, and 11 were new findings. These findings were representative of five of the
six key FISCAM control areas, and the majority were inherited from the lack of properly designed,
detailed, and consistent guidance over financial system controls to enforce DHS 4300A, Information
Technology Security Program, requirements and National Institute of Standards and Technology (NIST)
guidance. Specifically, the findings stem from: 1) inadequately designed and operating access control
policies and procedures relating to the granting of access to systems and supervisor re-certifications of
user access privileges, 2) lack of properly monitored audit logs, 3) inadequately designed and operating
change control policies and procedures, 4) patch and configuration management weaknesses within the
system, and 5) the lack of tested contingency plans. These weaknesses may increase the risk that the
confidentiality, integrity, and availability of system controls and FEMA financial data could be exploited,
thereby compromising the integrity of financial data used by management and reported in the DHS
financial statements.

While the recommendations made by KPMG should be considered by FEMA, it is the ultimate
responsibility of FEMA management to determine the most appropriate method(s) for addressing the
weaknesses identified based on system capabilities and available resources.




                                                     3
   Information Technology Management Letter for the FEMA Component of the FY 2008 DHS 

                                Financial Statement Audit 

                                Department of Homeland Security

                            Federal Emergency Management Agency 

                            Information Technology Management Letter
                                       September 30, 2008

                      IT GENERAL CONTROL FINDINGS BY AUDIT AREA

Conditions: In FY 2008, the following IT and financial system control weaknesses were identified at
FEMA and contribute to a DHS-level significant deficiency that is considered a material weakness in IT
general and application controls:


1.	 Access controls – we noted:
    �	 User account lists were not periodically reviewed for appropriateness, resulting in inappropriate
       authorizations and excessive user access privileges;
    �	 Accounts were not disabled or removed promptly upon personnel termination;
    �	 Audit logs were not reviewed or evidence of audit log reviews was not retained; and
    �	 Security patch management and configuration weaknesses exist on hosts supporting the key
       financial applications and general support systems.


2.	 Application software development and change controls – we noted:
    �	 Emergency and non-emergency changes were made prior to management approval. Additionally,
       changes made to the system did not always follow established procedures. Specifically,
                         , test plans, test results, approvals, and software modifications were not
       consistently performed or documented.


3.	 System software – we noted:
    �	 Evidence of system software audit log reviews is not retained.


4.	 Service continuity – we noted:
    �	 An alternate processing site is not operational for one of the FEMA financial systems.


5.	 Entity-wide security program planning and management – we noted:
    �	 Vulnerabilities identified from periodic scans are not reported and tracked via the Plan of Action
       and Milestones (POA&M) process.


Recommendations: We recommend that the FEMA Office of the Chief Information Officer (OCIO) and
Office of the Chief Financial Officer (OCFO), in coordination with the DHS OCIO and OCFO, make the
following improvements to FEMA’s financial management systems and associated IT security program:




                                                    4
   Information Technology Management Letter for the FEMA Component of the FY 2008 DHS 

                                Financial Statement Audit 

                                  Department of Homeland Security

                              Federal Emergency Management Agency 

                              Information Technology Management Letter 

                                         September 30, 2008

1. For access controls:
    �	 Develop and appropriately implement an access authorization process that ensures that a request
       is completed and documented for each individual prior to granting him/her access to a financial
       application or database;
    �	 Implement an account management certification process within FEMA to ensure the periodic
       review of user accounts for appropriate access and ensure that current user profiles are
       appropriately documented;
    �	 Implement a process to ensure that all system accounts of terminated employees and contractors
       are immediately removed/end-dated/disabled upon their departure;
    �	 Develop and implement detailed procedures requiring the consistent and timely review of 

       operating system and application logs for suspicious activity and the maintenance of 

       documentation supporting such reviews; and 

    �	 Conduct periodic vulnerability assessments, whereby systems are periodically reviewed for access
       controls related to patch management and configuration management not in compliance with
       DHS and other Federal guidance, and ensure that corrective action is developed, tracked, and
       performed to remediate any security weaknesses identified.


2.	 For application software development and change control:
   �	 Further develop and enforce policies that require changes and emergency changes to the
      application software to be approved, tested, and documented prior to implementation, and related
      documentation to be appropriately maintained.


3.	 For system software:
    �	 Actively monitor the use of and changes related to operating systems and other sensitive utility
       software and hardware, and maintain evidence of this monitoring.


4.	 For service continuity:
    �	 Ensure that alternate processing sites are established and made operational.


5.	 For entity-wide security program planning and management:
    �   Ensure that all vulnerabilities and weaknesses are reported and tracked via the POA&M process.




                                                    5
   Information Technology Management Letter for the FEMA Component of the FY 2008 DHS 

                                Financial Statement Audit 

                                 Department of Homeland Security

                             Federal Emergency Management Agency 

                             Information Technology Management Letter 

                                        September 30, 2008

Other Findings in IT General Controls


Although not considered to be a material weakness, we also noted the following other matters related to
IT and financial system control deficiencies during the FY 2008 audit engagement:


1.	 Access controls – we noted:
    �	 Interconnection Security Agreements (ISA) between FEMA and external parties were not in place
       or not finalized;
    �	 A formalized process does not exist to guide staff in the modification of system accounts to
       ensure that appropriate privileges are created, documented, and approved for a specific function;
    �	 Instances of inadequate or weak passwords that existed on key systems, servers and databases that
       house financial data; and
    �	 Workstations were configured without up-to-date anti-virus software.


2.	 Service continuity – we noted:
    �	 Full testing of a current and finalized contingency plan was not conducted; and
    �	 Backup tapes are not tested on a quarterly basis.


3.	 System software – we noted:
    �	 Procedures for identifying and installing patches are in draft and have not been implemented; and
   �	   Developer changes to the directory and sub-directories of one financial application are not 

        monitored to review and validate implemented changes. 



4.	 Entity-wide security program planning and management – we noted:
    �	 The system security plan for one financial system is not accurate and up-to-date.


5.	 Segregation of duties – we noted:
    �	 Documentation surrounding incompatible roles and responsibilities does not exist over a key
       financial application, and policies and procedures for properly segregating incompatible duties
       within the system are not documented.


Recommendations: We recommend that the FEMA OCIO and FEMA OCFO, in coordination with the
DHS OCIO and OCFO, make the following improvements to FEMA’s financial management systems:


                                                     6
   Information Technology Management Letter for the FEMA Component of the FY 2008 DHS 

                                Financial Statement Audit 

                                  Department of Homeland Security

                              Federal Emergency Management Agency 

                              Information Technology Management Letter 

                                         September 30, 2008


1. For access controls:
   �	 Ensure that ISAs are documented and finalized between FEMA and all applicable external parties;
   �	 Develop and implement policies and procedures that document the process of adding, deleting,
      and modifying                                                                functions to ensure
      that the proper controls are in place for modifying user account privileges;
   �	 Enforce password controls that meet DHS’ password requirements on all key financial systems;
      and
   �	 Develop procedures to regularly review and monitor workstations to ensure that the most up-to­
      date virus protection software is installed.


2.	 For service continuity:
   �	 Perform testing of key service continuity capabilities, including contingency planning. Ensure
      that all contingency plans and related documentation are updated upon completion of testing; and
   �	 Test backup tapes at least quarterly.


3.	 For system software:
   �	 Implement a patch management policy and enforce the requirement that systems are periodically
      tested for vulnerabilities by FEMA and the DHS OCIO; and
   �	 Establish a process within existing procedures for retaining documented evidence that developer
      changes to a financial application directory and sub-directories are monitored to verify that only
      authorized changes are implemented into production.


4.	 For entity-wide security program planning and management:
   �	 Finalize and implement the comprehensive system security plans for all key financial systems in
      accordance with DHS and NIST guidance.


5.	 For segregation of duties:
    �	 Document duties that are incompatible, and develop and implement policies and procedures for
       properly segregating incompatible duties within the system.


Cause/Effect: Many of these weaknesses originate from policy and system development activities that did
not incorporate strong security controls from the outset and will take several years to fully remediate.
While FEMA has made improvements in addressing the root cause of some IT weaknesses and has
worked to improve security controls, we found that focus is often still placed on the tracking of responses


                                                     7
   Information Technology Management Letter for the FEMA Component of the FY 2008 DHS 

                                Financial Statement Audit 

                                 Department of Homeland Security

                             Federal Emergency Management Agency 

                             Information Technology Management Letter
                                        September 30, 2008

to audit recommendations, instead of on developing the most effective method of addressing the actual
control weakness. When weaknesses in controls or processes are identified, we noted that corrective
actions implemented address the symptom of the problem and do not always correct the root cause,
resulting in a temporary fix. Further, detection of these temporary fixes through self-evaluation is not
effective, due to insufficient testing of IT controls and remediation activities. Finally, FEMA has
undertaken several high priority and competing IT initiatives to improve its control environment and does
not always have sufficient resources to direct towards the implementation of security controls in a
consistent manner.

Reasonable assurance should be provided that financial system user access levels are limited and
monitored for appropriateness and that all user accounts belong to current employees and contractors.
Furthermore, monitoring of the more highly privileged accounts is essential. The weaknesses identified
within FEMA’s access controls increase the risk that employees and contractors may have access to a
system that is outside the realm of their job responsibilities or that a separated individual, or another
person with knowledge of an active account of a terminated employee or contractor, could use the
account to alter the data contained within the application or database without being detected. This may
also increase the risk that the confidentiality, integrity, and availability of system controls and the
financial data could be exploited, thereby compromising the integrity of financial data used by
management and reported in the DHS financial statements.

Furthermore, the lack of fully implemented security configuration management controls may result in
security responsibilities communicated to system developers improperly as well as the improper
implementation and monitoring of system changes. This also increases the risk of unsubstantiated
changes and changes that may introduce errors or data integrity issues that are not easily traceable back to
the changes. In addition, it increases the risk of undocumented and unauthorized changes to critical or
sensitive information and systems, which may reduce the reliability of information produced by these
systems.

Criteria: The Federal Information Security Management Act (FISMA), passed as part of the Electronic
Government Act of 2002, mandates that Federal entities maintain IT security programs in accordance with
OMB and NIST guidance. OMB Circular No. A-130, Management of Federal Information Resources, and
various NIST guidelines describe specific essential criteria for maintaining effective IT general controls. In
addition, OMB Circular No. A-127, Financial Management Systems, prescribes policies and standards for
Executive Branch departments and agencies to follow in developing, operating, evaluating, and reporting on
financial management systems. For this year’s IT audit procedures, we also assessed FEMA’s compliance
with DHS Sensitive Systems Policy Directive 4300A, Information Technology Security Program.




                                                     8
   Information Technology Management Letter for the FEMA Component of the FY 2008 DHS 

                                Financial Statement Audit 

                                Department of Homeland Security

                            Federal Emergency Management Agency 

                            Information Technology Management Letter
                                       September 30, 2008

                              APPLICATION CONTROL FINDINGS


No application control weaknesses were identified during our FY 2008 testing of IT controls.

                    MANAGEMENT COMMENTS AND OIG RESPONSE

We obtained written comments on a draft of this report from FEMA Management. Generally, FEMA
agreed with all of our findings and recommendations. FEMA has developed a remediation plan to
address these findings and recommendations. We have incorporated these comments where appropriate
and included a copy of the comments at Appendix D.

OIG Response

We agree with the steps that FEMA management is taking to satisfy these recommendations.




                                                   9
   Information Technology Management Letter for the FEMA Component of the FY 2008 DHS 

                                Financial Statement Audit 

                                                                           Appendix A

                          Department of Homeland Security

                      Federal Emergency Management Agency 

                      Information Technology Management Letter 

                                 September 30, 2008




                                   Appendix A 


  Description of Key Federal Emergency Management Agency Financial

Systems and Information Technology Infrastructure within the Scope of the 

  FY 2008 Department of Homeland Security Financial Statement Audit 

                              Engagement





                                         10
 Information Technology Management Letter for the FEMA Component of the FY 2008 DHS 

                              Financial Statement Audit 

                                                                                          Appendix A

                             Department of Homeland Security

                         Federal Emergency Management Agency 

                         Information Technology Management Letter 

                                    September 30, 2008


Below is a description of significant Federal Emergency Management Agency (FEMA) financial
management systems and supporting information technology (IT) infrastructure included in the scope
of the engagement to perform the financial statement audit.

Locations of Audit: FEMA                                      .; the
                  in                    ; the National Flood Insurance Program (NFIP) in
             ; and the NFIP contractor location in                   .

Key Systems Subject to Audit:

�                                                                  –       is the key financial
    reporting system, and has several feeder subsystems (budget, procurement, accounting, and other
    administrative processes and reporting).

�                                                                    –        is an integrated system
    to provide FEMA, the states, and certain other federal agencies with automation to perform
    disaster related operations.        supports all phases of emergency management and provides
    financial-related data to      via an automated interface.

                                                    (       - The        application acts as a central
    repository of all data submitted by the Write Your Own (WYO) companies and              Direct
    Servicing Agent.          also supports the NFIP, primarily by ensuring the quality of financial
    data submitted by the WYO companies and the Direct Servicing Agent to              .       is a
               -based application that runs on the NFIP             logical partition in


�              - The general ledger application used by                                  to generate the
    NFIP financial statements.            is a client-server application that runs on a          server
    in                    , which is secured in the                     room. The            client is
    installed on the desktop computers of the         Bureau of Financial Statistical Control group
    members.

�                                            ­       is a web-based application which was developed
    by                         specifically for FEMA grants.         allows grantees to access their
    grant funds and upload SF 269s online. Draw down transaction information from            is
    interfaced with        .        then interfaces with the U.S. Department of the Treasury
    (Treasury) to transfer payment information to Treasury, resulting in a disbursement of funds to
    the grantee.




                                                 11
Information Technology Management Letter for the FEMA Component of the FY 2008 DHS 

                             Financial Statement Audit 

                                                                           Appendix B

                          Department of Homeland Security

                      Federal Emergency Management Agency 

                      Information Technology Management Letter 

                                 September 30, 2008




                                   Appendix B

FY 2008 Notices of Information Technology Findings and Recommendations
             at the Federal Emergency Management Agency




                                         12
 Information Technology Management Letter for the FEMA Component of the FY 2008 DHS 

                              Financial Statement Audit 

                                                                                             Appendix B

                                 Department of Homeland Security

                             Federal Emergency Management Agency 

                             Information Technology Management Letter
                                        September 30, 2008

Notice of Findings and Recommendations – Definition of Risk Ratings**:

The Notices of Findings and Recommendations (NFR) were risk ranked as High, Medium, and Low**
based upon the potential impact that each weakness could have on Federal Emergency Management
Agency’s (FEMA) information technology (IT) general control environment and the integrity of the
financial data residing on FEMA’s financial systems, and the pervasiveness of the weakness.

** The risk ratings are intended only to assist management in prioritizing corrective actions,
considering the potential benefit of the corrective action to strengthen the IT general control environment
and/or the integrity of the DHS consolidated financial statements. The risk ratings, used in this context,
are not defined by Government Auditing Standards, issued by the Comptroller General of the United
States, or the American Institute of Certified Public Accountants (AICPA) Professional Standards, and do
not necessarily correlate to a significant deficiency, as defined by the AICPA Professional Standards and
reported in our Independent Auditors’ Report on the DHS consolidated financial statements, dated
November 14, 2008.

Correction of some higher risk findings may help mitigate the severity of lower risk findings, and
possibly function as a compensating control. In addition, analysis was conducted collectively on all
NFRs to assess connections between individual NFRs, which when joined together could lead to a control
weakness occurring with more likelihood and/or higher impact potential.

High Risk**: A control weakness that is more serious in nature affecting a broader range of financial IT
systems, or having a more significant impact on the IT general control environment and /or the integrity
of the financial statements as a whole.

Medium Risk**: A control weakness that is less severe in nature, but in conjunction with other IT
general control weaknesses identified, may have a significant impact on the IT general control
environment and / or the integrity of the financial statements as a whole.

Low Risk**: A control weakness minimal in impact to the IT general control environment and / or the
integrity of the financial statements.




                                                    13
   Information Technology Management Letter for the FEMA Component of the FY 2008 DHS 

                                Financial Statement Audit 

                                                                                                       Appendix B

                                     Department of Homeland Security

                                 Federal Emergency Management Agency 

                                 Information Technology Management Letter 

                                            September 30, 2008




                            Federal Emergency Management Agency 

                           FY 2008 Notices of Information Technology 

                        Notices of Findings and Recommendations – Detail 





                                                    14
Information Technology Management Letter for the FEMA Component of the FY 2008 DHS Financial Statement Audit
                                                                                                                                        Appendix B

                                               Department of Homeland Security

                                           Federal Emergency Management Agency 

                                           Information Technology Management Letter 

                                                      September 30, 2008




                                                                                                                                         Repeat    Risk
  NFR #                            Condition                                           Recommendation                       New Issue
                                                                                                                                          Issue   Rating*
FEMA-IT-08­   During our vulnerability assessment technical             FEMA should implement the corrective actions                        X     High
   02         testing, certain configuration management                 listed in the NFR for each technical control
              weaknesses were identified on                             weakness identified.
                                                        and

                                database instances and on key
              support servers. Specifically, servers were identified
              with password and auditing configuration
              weaknesses.
FEMA-IT-08­          account users did not complete a new FEMA          Ensure that the Office of Chief Financial Officer                  X      High
   03         Form 20-24 in response to the recertification process.    (OCFO) Procedures for Granting Access to
                                                                                are consistently followed by continuing
                                                                        to perform and document a review of all
                                                                        accounts in accordance with DHS policy,
                                                                        including supervisor verification of all access
                                                                        privileges granted through the submission of a
                                                                        new FEMA Form 20-24 by all federal
                                                                        employees and contractors.

FEMA-IT-08­   We noted that FEMA has made a management                  We recommend that FEMA develop and                                 X      Low
   06         decision not to develop policies and procedures over      implement policies and procedures documenting
              the modification of         account functions until       the process of adding, deleting, and modifying
              the new          system upgrade occurs. We noted                 system functions to ensure that the
              that FEMA has reported in the Plan of Action and          proper controls are in place for modifying user
              Milestones that they expect to address corrective         account privileges.
              action for this weakness in FY 2010. As a result, a
              formalized process does not exist to guide Financial
              Services Section (FSS) staff in the modification of



                                                                       15
  Information Technology Management Letter for the FEMA Component of the FY 2008 DHS Financial Statement Audit
                                                                                                                                        Appendix B

                                                Department of Homeland Security

                                            Federal Emergency Management Agency 

                                            Information Technology Management Letter 

                                                       September 30, 2008

                                                                                                                                         Repeat    Risk
  NFR #                             Condition                                          Recommendation                       New Issue
                                                                                                                                          Issue   Rating*
              the system to ensure that appropriate privileges are
              created, documented, and approved for a specific
              function.
FEMA-IT-08­   FEMA informed us that the automated manager                �   Dedicate resources to complete the review                     X      Medium
   12         certification process has not yet begun. Therefore,            of          user access for FY 2008 and
              the FY 2008 recertification has not been completed             conduct subsequent annual reviews of
              and the risk of unauthorized users accessing                            user access by performing the
              was present for a majority of the fiscal year.                 management certification process in
                                                                             accordance with FEMA and DHS policies
                                                                             and procedures.
                                                                         � Fully implement the policies and procedures
                                                                             in place for the         recertification
                                                                             process and retain auditable records, in
                                                                             accordance with DHS policy, that provide
                                                                             evidence that recertifications are conducted
                                                                             and completed periodically with timeliness.
FEMA-IT-08­   KPMG was informed that terminated               users      Ensure that policies and procedures over                          X      High
   13         are to have the “                 ” role applied to        removal of separated user access to          and
              their account profile prior to being removed from the              are consistently followed by removing
              application, which overrides all existing roles and        accounts for any separated users immediately
              deactivates any existing privileges within the             upon notification of separation according to
              application although the individual can still log into     FEMA, DHS and National Institute of Standards
              the account. However, FEMA Instruction 2200.7              and Technology guidance.
              specifies that personnel separating from FEMA shall
              have all         access privileges cancelled and their
              user account removed. Consequently, although the
              risk is mitigated by the limited access rights on the
              accounts with the “                  ” privilege, those
              six accounts demonstrate that the policies and
              procedures surrounding the           terminated user
              process are not consistently applied and the accounts



                                                                        16
  Information Technology Management Letter for the FEMA Component of the FY 2008 DHS Financial Statement Audit
                                                                                                                                          Appendix B

                                               Department of Homeland Security

                                           Federal Emergency Management Agency 

                                           Information Technology Management Letter 

                                                      September 30, 2008

                                                                                                                                           Repeat    Risk
  NFR #                            Condition                                           Recommendation                         New Issue
                                                                                                                                            Issue   Rating*
              have not been removed. Additionally, four (4) out of
              the ten (10) accounts remained on the       system
              with an active status.

FEMA-IT-08­   There is no documented evidence to support that           We recommend that FEMA establish a process                           X      Medium
   17         monitoring of the “         directory and sub­            within existing procedures for retaining
              directories of      is occurring.                         documented evidence that the “           ”
                                                                        directory and sub-directories are being
                                                                        monitored to verify that only authorized changes
                                                                        are implemented into production.

FEMA-IT-08­   While FEMA informed us that system software               We recommend that FEMA’s process for                                 X      Medium
   19         activity is logged, we were unable to obtain evidence     monitoring sensitive access and suspicious
              that the audit logs were reviewed on a periodic basis.    activity on         system software include
                                                                        retention of evidence that audit records are
                                                                        proactively reviewed.

FEMA-IT-08­   Per inspection of the Plan of Actions and Milestones,     �   Complete on-going efforts to fully establish                     X      High
   22         we noted that corrective action was initiated by              and implement an alternate processing site
              FEMA to implement an alternate processing facility            for the       system according to DHS
              for          but that the alternate site has not been         4300A.
              established.
                                                                        �   Ensure that redundant servers are created at
              Due to the magnitude of the project scope,                    the alternate processing site that is
              implementation of an alternate processing site will           established for the          servers located at
              not be achieved within twelve (12) months.                    the
              Consistent with DHS policy for corrective actions                     during implementation of the
              that cannot be implemented within twelve (12)                 alternate processing site.
              months, a DHS IT Security Program Waiver
              (number WR-2008-012) was approved by the DHS
                                                                        �   Update the existing waiver, as required, in
              Chief Information Security Officer in March 2008 to
                                                                            accordance with effective DHS policy
              provide FEMA with additional time to plan and


                                                                       17
  Information Technology Management Letter for the FEMA Component of the FY 2008 DHS Financial Statement Audit
                                                                                                                                            Appendix B

                                                 Department of Homeland Security

                                             Federal Emergency Management Agency 

                                             Information Technology Management Letter 

                                                        September 30, 2008

                                                                                                                                             Repeat    Risk
  NFR #                             Condition                                             Recommendation                        New Issue
                                                                                                                                              Issue   Rating*
              develop an effective alternate processing site for               regarding waivers, and ensure that
                     . Per DHS policy, the waiver must be                      compensating controls described in the
              reviewed, updated, and re-approved by the                        waiver are effective and documentation of
              appropriate management officials every six (6)                   their effectiveness is maintained as auditable
              months.                                                          records.

              As required by DHS policy, the approved waiver
              describes the mitigating efforts, management’s
              acceptance of the associated residual risk, and a plan
              for attaining compliance with DHS policy. The
              waiver also documents the compensating controls to
              mitigate risk until the alternate processing site is
              implemented. The compensating controls are to be
              derived by conducting annual table-top exercises and
              ensuring that regular backups of critical            data
              and offsite backup storage are performed. However,
              a fully successful table-top test of         has not
              been conducted for FY 2008. The waiver granted
              provides an extension of time to implement
              corrective action, but the associated risk still
              remains.

FEMA-IT-08­           system administrators conducted ad hoc               We recommend that FEMA develop and                                  X      Low
   23         backup tape restores for system users and performed          implement procedures to periodically test the
              a full database restore in March 2008 during a server               backups in accordance with DHS
              upgrade. However, there was no evidence that                 Information Technology Security Program
              quarterly testing was conducted or that FEMA has a           Publication 4300A requirements.
              formalized process to test backup tapes more
              frequently than annually.
FEMA IT-08­   We noted that the tape restore schedule requires             We recommend that FEMA periodically test                            X      Low
   24         quarterly testing of backup tapes beginning no earlier              backups on a quarterly basis in
              than FY 2009.                                                compliance with FEMA and DHS policy.


                                                                          18
  Information Technology Management Letter for the FEMA Component of the FY 2008 DHS Financial Statement Audit
                                                                                                                                         Appendix B

                                               Department of Homeland Security

                                           Federal Emergency Management Agency 

                                           Information Technology Management Letter 

                                                      September 30, 2008

                                                                                                                                          Repeat    Risk
  NFR #                            Condition                                           Recommendation                        New Issue
                                                                                                                                           Issue   Rating*

              Additionally, we determined that the
              Contingency Plan was not tested and consequently a
              full        backup tape restore did not occur in FY
              2008. Rather,          system administrators
              conducted ad hoc backup tape restores at the request
              of system users during the fiscal year.

FEMA-IT-08­   Due to the magnitude of the project scope to              �   Continue to dedicate resources towards X                               Medium
   25         establish a “real-time” alternate processing site for         completing on-going corrective actions to
                        FEMA was unable to implement corrective             implement a “real-time” alternate
              actions to fully remediate the prior year finding             processing site for
              within twelve (12) months. Consistent with DHS
              policy for findings that cannot be remediated within      �   Update the existing waiver, as required, in
              twelve (12) months, a DHS IT Security Program                 accordance with effective DHS policy
              Waiver (number WR-2008-012) was approved by                   regarding waivers, and ensure that
              the DHS Chief Information Security Officer in                 compensating controls described in the
              March 2008 to provide FEMA with additional time               waiver are effective and documentation of
              to plan and develop an effective alternate processing         their effectiveness is maintained as auditable
              site for           Per DHS policy, the waiver must be         records.
              reviewed, updated, and re-approved by the
              appropriate management officials every six (6)
                                                                        �   In the event that an updated waiver is denied
              months. The waiver identifies that until the alternate
                                                                            or when the alternate processing site is
              processing site is implemented and full scale testing
                                                                            established, conduct documented annual
              can be conducted, compensating controls will be
                                                                            tests of the          contingency plan that
              implemented by conducting annual table-top
                                                                            address all critical phases of the plan.
              exercises.

              Additionally, at the close of our audit test work, we     �   Update the            contingency plan based
              determined that annual table-top testing had not been         on the lessons learned from table-top or full-
              conducted and documented. We determined that the              scale testing results, as necessary.
              most recently conducted table-top review of the


                                                                       19
  Information Technology Management Letter for the FEMA Component of the FY 2008 DHS Financial Statement Audit
                                                                                                                                     Appendix B

                                               Department of Homeland Security

                                           Federal Emergency Management Agency 

                                           Information Technology Management Letter 

                                                      September 30, 2008

                                                                                                                                      Repeat    Risk
  NFR #                            Condition                                           Recommendation                    New Issue
                                                                                                                                       Issue   Rating*
                        contingency plan occurred on July 21, 2007
              and was conducted for processes, procedures, and
              scenarios identified in the contingency plan dated
              June 29, 2007. We noted that the documented results
              of the July 2007 test stated that FEMA was unable to
              successfully complete steps that were planned to be
              conducted during the Recovery Procedure Activation
              phase due to material weaknesses and deficiencies
              cited in the recovery procedures.
FEMA-IT-08­   During our FY 2008 follow up test work, we tested a       We recommend that FEMA, in accordance                           X      Medium
   28         selection of 40          non-emergency application        with DHS and FEMA policy, ensure that
              level                                  that had                    non-emergency application level
              occurred since October 1, 2007. Of the 40                 changes obtain all required approvals prior to
              tested, we noted the following exceptions:                implementation into production and that
                                                                        testing documentation is appropriately
                  �    29     did not have testing                      retained.
                       documentation attached to the      ;
                  �    36     did not have
                                                        approval;
                       and
                  �    32       did not have
                                          approval

FEMA-IT-08­   We noted that         approvals for        application    We recommend that FEMA, in accordance                           X      Medium
   29         level emergency changes did not consistently follow       with DHS and FEMA policy, ensure that
              FEMA and DHS guidance. Specifically, we                            application level emergency changes
              determined that of 25 emergency            changes        obtain all required approvals prior to
              selected for testing:                                     implementation into production and that
                   � 22 changes did not have documented                 testing documentation is appropriately
                       approval;                                        retained.
                   � 4 did not have         approval prior to



                                                                       20
  Information Technology Management Letter for the FEMA Component of the FY 2008 DHS Financial Statement Audit
                                                                                                                                            Appendix B

                                                Department of Homeland Security

                                            Federal Emergency Management Agency 

                                            Information Technology Management Letter 

                                                       September 30, 2008

                                                                                                                                             Repeat    Risk
  NFR #                             Condition                                           Recommendation                          New Issue
                                                                                                                                              Issue   Rating*
                        implementation into production;
                   � 16 did not have         approval; and
                   � 6 did not have related testing documentation
                        attached.
FEMA-IT-08­   We were referred to Section 2.2.1 of the NFIP              We recommend that NFIP document                                       X      Medium
   38         Administrative Manual as guidance on segregating           duties that are incompatible and develop and
              incompatible duties. Based on our review of the            implement policies and procedures for properly
              manual, we noted that it does not include policies         segregating incompatible duties within the
              and procedures regarding segregating incompatible          system.
              duties within            Additionally, while we noted
              that system roles and responsibilities have been
              documented,            duties that are incompatible
              are not documented.

FEMA-IT-08­   During our test work, we noted that a planned update       �   Update and test the             Contingency                       X      Medium
   39         and subsequent testing of the            Contingency           Plan, covering all critical phases of the plan
              Plan was not conducted and that system fail-over               in accordance with DHS policy. In addition,
              capability at the alternate processing site had not            NFIP should conduct a test of the system
              been tested Additionally the NFIP                              fail-over capability at the alternate
                                                                    )        processing site.
              was not updated to include the
                                                   and                   �   Revise the Disaster Recovery and             to
              alternate processing facility or        critical data          incorporate the            and         alternate
              files and restoration priorities.                              processing facility and the         critical
                                                                             data files, as well as update the plans with
                                                                             lessons learned from the testing.
FEMA-IT-08­          user access is not managed in accordance            �   In support of the OCFO Procedures for                 X                  High
   45         with account management procedures.                            Granting Access to            continue to
                                                                             ensure the process for granting or modifying
                                                                             access is monitored and that changes made
                                                                             to user profiles outside of the recertification



                                                                        21
  Information Technology Management Letter for the FEMA Component of the FY 2008 DHS Financial Statement Audit
                                                                                                                                     Appendix B

                                               Department of Homeland Security

                                           Federal Emergency Management Agency 

                                           Information Technology Management Letter 

                                                      September 30, 2008

                                                                                                                                      Repeat    Risk
  NFR #                            Condition                                        Recommendation                       New Issue
                                                                                                                                       Issue   Rating*
                                                                          process are documented and authorized by
                                                                          supervisors, program managers, and
                                                                          Contracting Officer’s Technical
                                                                          Representatives.
                                                                      �   Ensure that the          Database User
                                                                          Access Instruction is implemented
                                                                          consistently by requiring that all existing
                                                                          and new           users complete a current
                                                                                          Database User Access Form.
                                                                      �   Complete the development and
                                                                          implementation of policies and procedures
                                                                          over periodic recertification of all user
                                                                          access to the                database, and
                                                                          retain auditable records in accordance with
                                                                          DHS polices and procedures as evidence
                                                                          that recertifications are conducted and
                                                                          completed periodically with timeliness.

FEMA-IT-08­   The existing Memorandum of Understanding (MOU)          We recommend that FEMA complete the                   X                  Low
   46         with the Department of Treasury expired in October      review, reauthorization, and re-issuance of a
              2007.                                                   current MOU and Interconnection Security
                                                                      Agreement (ISA) between the Treasury’s
                                                                      Financial Management Service and FEMA.
FEMA-IT-08­   Based upon our review, we determined that the           Complete the reauthorization and reissuance of a      X                  Low
   47         ISA between FEMA and the Small Business                 renewed ISA between FEMA and SBA, and
              Administration (SBA) expired in July 2007 and           ensure that the ISA is subsequently reviewed,
              has not been reauthorized and reissued, as required     updated as necessary, and reissued timely, as
              by DHS policy.                                          required by DHS policy and/or the terms of the
                                                                      agreement.

FEMA-IT-08­   The vulnerabilities identified from the        scans    We recommend that FEMA implement a process            X                  Medium



                                                                     22
  Information Technology Management Letter for the FEMA Component of the FY 2008 DHS Financial Statement Audit
                                                                                                                                           Appendix B

                                                Department of Homeland Security

                                            Federal Emergency Management Agency 

                                            Information Technology Management Letter 

                                                       September 30, 2008

                                                                                                                                            Repeat    Risk
  NFR #                             Condition                                            Recommendation                        New Issue
                                                                                                                                             Issue   Rating*
    48        are not reported and tracked via DHS’ POA&M                 to ensure that weaknesses identified during
              process.                                                    vulnerability assessment scans of
                                                                           are formally reported and that associated
                                                                          corrective actions are developed and tracked via
                                                                          DHS’ POA&M process.

FEMA-IT-08­   We noted that the software was improperly                   Action was taken to correct this weakness               X                  Medium
   49         configured so that the user’s ability to change the         during the audit period. No further
              following settings had not been disabled:                   recommendation is required.
                   �                               for automatically
                        scanning system files for threats, known
                        viruses, and worms on a continuous basis
                        when Windows is started;
                   �                                        for
                        automatically scanning Outlook and/or
                        Outlook Express messages for viruses.
                   �                                for automatically
                        scanning incoming and outgoing Lotus
                        Notes messages; and
                   �                                  for scanning all
                        incoming and outgoing e-mail messages
                        other than Outlook and/or Outlook Express.
FEMA-IT-08­   � On a daily basis, an automated report of                  We recommend that FEMA, in accordance with              X                  Medium
   50                      database activity conducted by users           FEMA and DHS policy, continue to implement
                   with elevated “superuser” privileges is                procedures over audit logging processes for the
                   generated and emailed to the Database                          application and database and retain
                   Administrators (DBA) and FSS personnel for             evidence that audit records are proactively
                   review. However, while this report is                  reviewed. Specifically, the evidence should
                   distributed for review by the DBAs and FSS             provide a record of review that at a minimum
                   staff, no evidence that the reviews are                notes the identity of the individual that reviewed
                   conducted is retained.                                 the log (e.g., initials), the date of review, and



                                                                         23
  Information Technology Management Letter for the FEMA Component of the FY 2008 DHS Financial Statement Audit
                                                                                                                                          Appendix B

                                                 Department of Homeland Security
                                             Federal Emergency Management Agency
                                             Information Technology Management Letter
                                                        September 30, 2008

                                                                                                                                           Repeat    Risk
  NFR #                              Condition                                          Recommendation                        New Issue
                                                                                                                                            Issue   Rating*
              �    We noted that while FEMA Instruction                  follow up actions taken, if required. 

                   2200.7, 
       User Access Instruction,

                   assigns the responsibility of conducting this 

                   weekly review to FSS, FEMA personnel do

                   not formally document that the review is 

                   conducted.


FEMA-IT-08­   �    We noted that the Standard Operating                  We recommend that FEMA revise existing                  X                  High
   51              Procedures (SOP) for Handling of                      procedures for            audit logging to include
                   Audit Logs does not comprehensively address           a review of highly-privileged and administrator-
                   requirements of FEMA Directive 140-1,                 level activities as required by FEMA and DHS
                   FEMA Information Technology Security                  policy and ensure implementation of all 

                   Policy. Specifically, the SOP does not require
       requirements, including retention of evidence of
                   the monitoring of modifications to account            reviews of audit logs. 

                   tables and other highly-privileged and 

                   administrator-level activities. 

              �	   We noted that the SOP requires database 

                   administrators to initial and retain printed logs

                   as evidence that reviews are conducted as

                   required. However, FEMA informed us that 

                   this portion of the SOP was not being 

                   performed. 


FEMA-IT-08­   Existing procedures do not provide a timeframe for         We recommend that FEMA finalize and                     X                  Medium
   52         installing        patches. Finalization and                implement procedures that define the timeframe

              implementation of the 
                                    in which security patches should be installed.
                          - FEMA Information Security
              Vulnerability Management, which specifies the
              timeframe for installing security patches, has been
              delayed due to organizational changes.
FEMA-IT-08­   Upon inspection of the           System Security Plan      We recommend that FEMA ensure that                      X                  Medium



                                                                        24
  Information Technology Management Letter for the FEMA Component of the FY 2008 DHS Financial Statement Audit
                                                                                                                                               Appendix B

                                                     Department of Homeland Security
                                                 Federal Emergency Management Agency
                                                 Information Technology Management Letter
                                                            September 30, 2008

                                                                                                                                                Repeat    Risk
        NFR #                            Condition                                           Recommendation                        New Issue
                                                                                                                                                 Issue   Rating*
          53        (SSP) that is a part of the                               SSP is updated in accordance with DHS policy
                                     package, we noted that the server        so that current system components and system

                    and host names listed in Appendix B of the SSP are 
      owners are comprehensively documented in the 

                    not accurate. Specifically, the listing of system
        plan.
                    components is not comprehensive, and portions of
                    information, such as system owners, are not up to
                    date.
     FEMA-IT-08­    In FY 2008, we determined that NFIP had                   We recommend that NFIP ensure that testing              X                  Medium
        54          documented and implemented the                System      documentation for           changes is retained 

                    Change Control Procedures. During the audit, we 
         on file in accordance with DHS policy.

                    determined that two (2) 
          changes had been 

                    implemented since October 1, 2007. We obtained 

                    change documentation for both changes and noted 

                    that testing documentation was not retained for these

                    changes. 


     FEMA-IT-08­    During our FY 2008 test work, we noted that NFIP         We recommend that NFIP ensure that testing of            X                  Medium
        55          documented and implemented the NFIP Technical            all changes is documented and retained on file in 

                    Services Department Production Systems Control 
         accordance with DHS and NFIP requirements. 

                    Unit Procedures that provide guidance on 

                    implementing changes into the production 

                    environment. We selected for testing eight (8) 

                    changes that had been implemented since October 1, 

                    2007. Of the eight (8) tested, we identified that test 

                    results were not available for one (1) change. 





* Risk ratings are only intended to assist management in prioritizing corrective actions. Risk ratings in this context do not correlate to
definitions of control deficiencies as identified by the AICPA.



                                                                             25
        Information Technology Management Letter for the FEMA Component of the FY 2008 DHS Financial Statement Audit
                                                                                Appendix C

                             Department of Homeland Security

                         Federal Emergency Management Agency 

                         Information Technology Management Letter 

                                    September 30, 2008




                                       Appendix C 


Status of Prior Year Notices of Findings and Recommendations and Comparison 

           To Current Year Notices of Findings and Recommendations 





                                            26 

Information Technology Management Letter for the FEMA Component of the FY 2008 DHS Financial
                                      Statement Audit
                                                                                                         Appendix C

                                       Department of Homeland Security

                                   Federal Emergency Management Agency 

                                   Information Technology Management Letter 

                                              September 30, 2008


                                                                                               Disposition
NFR No.                                     Description                                      Closed    Repeat

FEMA-IT­ During our technical testing, patch management weaknesses were identified             X
  07-01  on Integrated                                                             ,
         and                                                               systems.

FEMA-IT­ During our technical testing, configuration management weaknesses were                       FEMA-IT­
  07-02  identified on          ,                  and key support servers.                             08-02

FEMA-IT­ We determined that the Financial Services Section (FSS) has created                          FEMA-IT­
  07-03  procedures to review            user access on a semi-annual basis for                         08-03
         appropriateness of access privileges granted to employees or contractors
         within their organization. Additionally, we noted that a recertification of all
                 users, which is also their semi-annual review of user access, began in
         June 2007. Currently, FSS is in the process of validating           access for
         users who responded to FSS’ recertification request. In addition, FSS is
         locking out the          users who did not respond. We determined that the
         recertification of all existing        users has not been completed for FY
         2007.

FEMA-IT­ The FEMA alternate processing site located in                  is not operational     X
  07-04  for          FEMA is in the process of setting up a
               ) to replicate data from the        production server at                and
         send it to the        servers in             . Currently the        is not
         complete and therefore, the          facility does not have the capability of
         functioning as the alternate processing site for        if a disaster were to
         occur.

FEMA-IT­ The       Security Test & Evaluation did not provide adequate                         X
  07-05  documentation of the results to the accrediting authority and that the prior
         year weakness still exists.

FEMA-IT­ There are not formal, documented procedures in place to require updates to                   FEMA-IT­
  07-06  the        system documentation as       functions are added, deleted, or                      08-06
         modified.

FEMA-IT­ We determined that FEMA has identified the                                            X
  07-07                          ) as the alternate processing facility for           ;
         however, it will not be fully operational until September 2007. Therefore, we
         determined that the           contingency plan has not undergone a full-scale
         test to show that the system can be brought back to an operational state at the
         designated alternate site.
FEMA-IT­ We determined that the FEMA                                              has not      X
  07-08  been updated to include the new listing of FEMA mission critical IT systems
         as outlined in the Information Technology Services Directorate



                                                            27 

  Information Technology Management Letter for the FEMA Component of the FY 2008 DHS Financial
                                        Statement Audit
                                                                                                        Appendix C

                                        Department of Homeland Security
                                    Federal Emergency Management Agency
                                    Information Technology Management Letter
                                               September 30, 2008

                                                                                              Disposition
NFR No.                                     Description                                     Closed    Repeat

             Implementation Plan.

FEMA-IT­ We noted that FEMA has begun to standardize all user workstations to                 X
  07-09                           with                 installed, which would ensure
         that all                 settings are properly applied to all users. Currently,
         FEMA is upgrading older user workstations to                             or
         providing users with new workstations. However, we noted that this process
         will not be fully complete until January 2008. This weakness impacts


            We noted that FEMA users are locked out of the system at the domain level
            after three (3) consecutive failed login attempts; however, the user account
            becomes unlocked and active again after five (5) minutes of inactivity.

FEMA-IT­ We determined that FEMA has begun to standardize all user workstations to            X
  07-10                           with                  installed, which would ensure
         that all                  settings are properly applied to all users. Currently,
         FEMA is upgrading older user workstations to                              or
         providing users with new workstations. However, we noted that this process
         is not fully completed, and FEMA has estimated this process will not be
         completed until January 2008.

             This weakness impacts

FEMA-IT- We noted that passwords for the         application can be re-used after six (6)     X
  07-11  iterations which is not in compliance with DHS 4300A.

FEMA-IT­ We determined that the FEMA Chief Information Officer (CIO) provided                        FEMA-IT­
  07-12 
 procedures to all Office Directors, Regional Directors and FEMA                              08-12 

          Coordinating Officers for the periodic review of all        accounts and
          position assignments on June 28, 2007. We noted that detailed procedures are
          listed for the review of        accounts; however, the procedures do not state
          the frequency of this review.

            We noted that this review began on June 29, 2007 with a deadline of July 26,
            2007 for accepting responses from users recertifying their        accounts.
            Therefore, risk of unauthorized users accessing         was present for a
            majority of the fiscal year.

FEMA-IT- We determined that the FSS has created procedures to review          user                   FEMA-IT­
  07-13  access on a semi-annual basis for appropriateness of access privileges granted                08-13
         to employees or contractors within their organization. Additionally, we noted
         that a recertification of all     users was performed in June 2007.



                                                            28
  Information Technology Management Letter for the FEMA Component of the FY 2008 DHS Financial 

                                        Statement Audit 

                                                                                                          Appendix C

                                       Department of Homeland Security
                                   Federal Emergency Management Agency
                                   Information Technology Management Letter
                                              September 30, 2008

                                                                                                 Disposition
NFR No.                                      Description                                       Closed   Repeat

             Currently, FSS is in the process of validating       access for the users who
             responded to FSS’ recertification request and locking out the        users
             who did not respond. We determined that the recertification of all existing
                    users is not yet complete for FY 2007.

            We determined that the FEMA CIO provided procedures to all Office
            Directors, Regional Directors and FEMA Coordinating Officers for the
            periodic review of all         accounts and position assignments on June 28,
            2007. However, the procedures do not state the frequency of this review.
            Furthermore, we noted that this review began on June 29, 2007 with a
            deadline of July 26, 2007 for accepting responses from users recertifying their
                    accounts. Therefore, the risk of unauthorized users accessing
            was present for a majority of the fiscal year.

            We noted that twenty-seven (27) terminated or separated FEMA employees
            and contractors maintain active       user accounts.

            We noted that seven hundred seventy (770) terminated or separated FEMA
            employees and contractors maintain active        user accounts.

FEMA-IT­ We determined that IT Operations has created backup procedures entitled,                X
  07-14                                         , for       and            dated July 27,
         2007. However, we noted that the procedures were finalized on July 27,
         2007, and that the risk was present for a majority of the fiscal year.

            We noted that both         and          backup tapes are not rotated off-site to
            the                .

         We noted that the FEMA alternate processing site located in                    is
         not operational for          We also noted that the          back-up facility has
         redundant servers in place for the                  Database in June 2007.
         Therefore, the risk was present for a majority of the fiscal year.
FEMA-IT- We determined that FEMA created the                                                     X
  07-15       ,            , dated June 29, 2007. We noted that this plan was in draft
         form and that it does not fully identify the configuration management process
         of

            We determined that FEMA created the Supplemental Security Policy to the
            DHS 4300A and 4300B, which details policies for restricting access to the
            system software of FEMA IT systems. However, we noted that the draft
            policy is dated June 14, 2007.

            We noted that procedures over restricting access to          system software



                                                             29
  Information Technology Management Letter for the FEMA Component of the FY 2008 DHS Financial 

                                        Statement Audit 

                                                                                                              Appendix C

                                        Department of Homeland Security
                                    Federal Emergency Management Agency
                                    Information Technology Management Letter
                                               September 30, 2008

                                                                                                    Disposition
NFR No.                                      Description                                          Closed    Repeat

            entitled,                                  Procedures, and            patch
            management procedures were approved on June 29, 2007. However, we
            noted that the risk was present for a majority of the fiscal year, and as a result,
            the NFR will be re-issued for FY 2007.

FEMA-IT- FEMA created the Supplemental Security Policy to the DHS 4300A and                         X
  07-16  4300B, which details policies for restricting access to system software.
         However, we noted that the policy is in draft and dated June 14, 2007.

            FEMA has not documented procedures for restricting access to              system
            software.

FEMA-IT- We determined that FEMA created a                            Standard                             FEMA-IT­
  07-17  Operating Procedures (SOP) for          However, the                                                08-17
                  SOP was approved by the OCFO on June 29, 2007. Furthermore, we
         noted the evidence that the “      ” account was locked within the
         environment on July 24, 2007. Therefore, we noted that the risk was present
         for a majority of the fiscal year.

FEMA-IT- FEMA created the Supplemental Security Policy to the DHS 4300A and                         X
  07-18  4300B detailed policies for investigating and reporting any suspicious
         activity detected when reviewing audit logs. However, we noted that the
         policy is dated June 14, 2007 and is in draft form.

            FEMA has not documented specific procedures to review suspicious system
            software activity and access controls for

FEMA-IT- FEMA created the Supplemental Security Policy to the DHS 4300A and                                FEMA-IT­
  07-19  4300B detailed policies for monitoring sensitive access and investigating and                       08-19
         reporting any suspicious activity detected when reviewing audit logs.
         However, we noted that the policy is dated June 14, 2007 and is in draft form.

            FEMA has not documented procedures to monitor and review sensitive access,
            system software utilities and suspicious system software and access activities
            for

FEMA-IT­ FEMA has adopted the DHS                           for           This policy               X
  07-20  establishes required practices for managing DHS IT systems and
         infrastructure solutions through a progression of activities for initiation,
         planning, development, testing, implementation, operation, maintenance, and
         retirement. However, we noted that the policy is dated January 27, 2006 and
         is in draft form.




                                                              30
  Information Technology Management Letter for the FEMA Component of the FY 2008 DHS Financial 

                                        Statement Audit 

                                                                                                           Appendix C

                                        Department of Homeland Security
                                    Federal Emergency Management Agency
                                    Information Technology Management Letter
                                               September 30, 2008

                                                                                                 Disposition
NFR No.                                      Description                                       Closed    Repeat

FEMA-IT­ FEMA has adopted the DHS                           for            This policy           X
  07-21  establishes required practices for managing DHS IT systems and
         infrastructure solutions through a progression of activities for initiation,
         planning, development, testing, implementation, operation, maintenance, and
         retirement. However, we noted that the policy is dated January 27, 2006 and
         is in draft form.

FEMA-IT­ FEMA did not have an operational alternate processing site for           for a                 FEMA-IT­
  07-22  majority of the fiscal year. We determined that the alternate processing site in                 08-22
                         has redundant servers in place for the                Database
         effective as of June 2007.

FEMA-IT­     FEMA lacks          backup testing procedures. Additionally, we determined                 FEMA-IT­
  07-23      that the       backups are not periodically tested.                                          08-23
FEMA-IT­     FEMA lacks           backup testing procedures. Additionally, we determined                FEMA-IT­
  07-24      that the        backups are not periodically tested.                                         08-24

FEMA-IT­ We noted that the              contingency plan has not been tested on an annual               FEMA-IT­
  07-25  basis, per DHS 4300A.                                                                            08-25

FEMA-IT­ During our review of user access rights for the approval of                             X
  07-26                   we noted that excessive access rights existed. Specifically,
         we determined that three (3) people were authorized to approve
                       s; however, one (1) individual was transferred to another DHS
         agency. Therefore, this person’s job responsibilities no longer required this
         access nor was this individual a current FEMA employee.

             Upon notification of this issue, FEMA took corrective action and removed the
             individual’s access rights.

FEMA-IT­     We noted that testing documentation for            application level changes is     X
  07-27      not consistently documented or performed timely.
FEMA-IT­     Per DHS 4300A, all changes to major applications must be formally                          FEMA-IT­
  07-28      approved, tested and documented prior to the change being implemented. For                   08-28
             the test of this control, we selected a sample of nine (9)         application
             level changes. We noted that one (1) out of the sample did not have testing
             performed.

FEMA-IT­ We noted that the Technical Review Committee (         ) approvals for                         FEMA-IT­
  07-29  application level emergency changes are not consistently documented.                             08-29
         Specifically, we determined that five (5) out of a sample of eight (8)
         application level emergency changes did not gain        approval.




                                                             31
  Information Technology Management Letter for the FEMA Component of the FY 2008 DHS Financial 

                                        Statement Audit 

                                                                                                        Appendix C

                                        Department of Homeland Security
                                    Federal Emergency Management Agency
                                    Information Technology Management Letter
                                               September 30, 2008

                                                                                               Disposition
NFR No.                                      Description                                     Closed   Repeat

FEMA-IT- We determined that excessive access is designed to be permitted within                X

  07-30 
         to make offline changes to the general ledger account tables via the
                                                                           Group. We
          identified six (6) users in the        group that have the ability to make
          offline changes to the general ledger account tables, which are not within their
          job responsibilities.

FEMA-IT­             does not timeout after a period of inactivity. Additionally, we           X

  07-31 
 determined that all        workstations use a password protected screensaver
          after fifteen (15) minutes of inactivity, which is not in compliance with DHS
          4300A.

                      access is not reviewed on a periodic basis to determine if access is
             valid and commensurate with job responsibilities.

FEMA-IT­ While a standard form has been developed for documenting                   change     X

  07-32 
 requests,         change management procedures have not been 

          documented. 


            System software change management procedures have not been developed or
            implemented. Additionally, installation of the operating system upgrade in
            FY 2007 was not formally documented or approved.

FEMA-IT­ NFIP has made improvements in the area of Administrator account                       X

  07-33 
 management. However, we noted that system activity logs are not being

          reviewed. 

FEMA-IT­ NFIP has updated the                                                                  X
  07-34               baseline configuration document. However, we noted that
          procedures have not been developed which require approvals prior to
          implementation. Additionally, of 30 changes selected, 14 changes did not
          have documented Operations Service Request forms or documented
          approvals.

FEMA-IT­ A system programmer                  had write access to the                          X
  07-35                         and              datasets of the
         production member. NFIP removed the system programmer’s access shortly
         after this finding was identified.

FEMA-IT- Access to the                             excel files is excessive. Specifically,     X
  07-36  we identified that modify and write access permissions to the excel files are
         inappropriate for five individuals of the Bureau of Finance and Statistical
         Control group.




                                                              32
  Information Technology Management Letter for the FEMA Component of the FY 2008 DHS Financial 

                                        Statement Audit 

                                                                                                         Appendix C

                                       Department of Homeland Security
                                   Federal Emergency Management Agency
                                   Information Technology Management Letter
                                              September 30, 2008

                                                                                               Disposition
NFR No.                                     Description                                      Closed    Repeat

FEMA-IT- We noted there is excessive access to             application software and            X
  07-37  support files. Specifically, we noted that all individuals within the Bureau of
         Finance and Statistical Control group have modify and write access to the
                   application software and support files.

FEMA-IT­ NFIP has not documented incompatible duties within                developed                  FEMA-IT­
  07-38  policy and procedures regarding segregation of duties, or implemented                          08-38
         segregation of duties controls within          . All users of           have full
         application level access.
FEMA-IT­ The           contingency plan has not been tested. As a result, the system                  FEMA-IT­
  07-39  fail-over capability for the         alternate processing site has not been                    08-39
         tested.

            The NFIP Disaster Recovery and COOP does not identify the following:

            The            and      alternate processing facility; and      critical data
            files are not documented.

FEMA-IT- The rules of behavior (ROB) forms are not consistently signed prior to users          X
  07-40  gaining access to the NFIP Bureau                           ). Specifically,
         we determined that three (3) out of a sample of twelve (12) new NFIP Bureau
               users did not sign the ROB prior to obtaining NFIP Bureau        access.

FEMA-IT- We determined that policies and procedures over periodic review of                    X
  07-41  access lists have been documented. However, we noted that the periodic
         review determining if logical user access is valid and consistent with job
         responsibilities is not effective as an instance of excessive system developer
         access was identified within

FEMA-IT- We determined that periodic review policies and procedures have not been              X
  07-42  developed for access to the NFIP Bureau        room. As a result, we noted
         that there are two (2) employees with excessive access to the NFIP Bureau
                room.

FEMA-IT- The NFIP Bureau           has been configured to permit users to reuse prior          X

  07-43 
 passwords after five (5) iterations which is not in compliance with the DHS
          4300A.
FEMA-IT- We noted that proactive vulnerability scanning is not performed over                  X

  07-44 
 backend database or the NFIP Bureau          .




                                                            33
  Information Technology Management Letter for the FEMA Component of the FY 2008 DHS Financial 

                                        Statement Audit 

                                                                                Appendix D

                             Department of Homeland Security

                         Federal Emergency Management Agency 

                         Information Technology Management Letter 

                                    September 30, 2008




                                       Appendix D 


                                Management Comments 





                                            34 

Information Technology Management Letter for the FEMA Component of the FY 2008 DHS Financial
                                      Statement Audit
                                                                                Appendix D

                             Department of Homeland Security

                         Federal Emergency Management Agency 

                         Information Technology Management Letter 

                                    September 30, 2008




                                            35 

Information Technology Management Letter for the FEMA Component of the FY 2008 DHS Financial
                                      Statement Audit
                             Department of Homeland Security

                         Federal Emergency Management Agency 

                         Information Technology Management Letter 

                                    September 30, 2008


                    Report Distribution

                    Department of Homeland Security

                    Secretary
                    Acting Deputy Secretary
                    Chief of Staff for Operations
                    Chief of Staff for Policy
                    Acting General Counsel
                    Executive Secretariat
                    Under Secretary, Management
                    Acting Administrator, FEMA
                    DHS Chief Information Officer
                    DHS Chief Financial Officer
                    Chief Financial Officer, FEMA
                    Chief Information Officer, FEMA
                    Chief Information Security Officer
                    Assistant Secretary, Policy
                    Assistant Secretary for Public Affairs
                    Assistant Secretary for Legislative Affairs
                    DHS GAO OIG Audit Liaison
                    Chief Information Officer, Audit Liaison
                    FEMA Audit Liaison

                    Office of Management and Budget

                    Chief, Homeland Security Branch
                    DHS OIG Budget Examiner

                    Congress

                    Congressional Oversight and Appropriations Committees as Appropriate




                                               36 

Information Technology Management Letter for the FEMA Component of the FY 2008 DHS Financial
                                      Statement Audit
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
